Oversight
Report
          REPORT ON QUALITY CONTROL REVIEW
        OF DEFENSE CONTRACT AUDIT AGENCY AND
      KPMG LLP OFFICE OF MANAGEMENT AND BUDGET
   CIRCULAR A-133 AUDIT REPORT OF SRI INTERNATIONAL,
          FISCAL YEAR ENDED DECEMBER 25, 1999


Report Number D-2002-6-003              January 14, 2002




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this quality control report, visit the Inspector
  General, DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit of the Audit Followup and Technical
  Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future reviews, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
GAS                   Government Auditing Standards
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
with all OMB Circular A-133 reporting requirements, except the Schedule of
Expenditures of Federal Awards did not identify sub-recipient and pass-through
expenditures, and the Corrective Action Plan did not specify a planned completion date
or point of contact (Finding C).

Finding A. Oversight of Work Performed by Technical Specialists. DCAA
auditors did not ensure that work performed by Defense Contract Management Agency
(DCMA) technical specialists adequately answered the objectives of the assigned
compliance requirements. This condition occurred because DCAA auditors did not
follow the requirements in the DCAA Contract Audit Manual related to using the work
of technical specialists. As a result, DCAA auditors relied on work performed by
technical specialists that may not have answered the compliance requirement objectives.

The DCAA Contract Audit Manual states:

       "To satisfy certain of the requirements [related to evaluation of work performed by
       others], access to working papers is required. Accordingly, make arrangements to
       ensure that working papers will be available. Evaluation of the work product should be
       based on a comparison of the audit steps the DCAA auditor believes are necessary to
       those that are performed. If the DCAA auditor concludes that audit program steps
       essential to developing evidence to support an unqualified opinion have not been
       performed, those additional steps must be performed by the auditor before issuing an
       audit report." The Contract Audit Manual also states that when a technical specialist is
       used, “It is the auditor’s responsibility to examine the technical evaluation report to
       ensure a reasonable understanding of the actual work performed. The auditor’s
       working papers must document (1) the auditor’s understanding of the actual work
       performed, and (2) the degree of reliance the auditor placed on the technical evaluation,
       including its impact on the results of audit.”

DCAA, KPMG LLP, and DCMA effectively coordinated the audit approach, including
determining which organization was responsible for auditing SRI International’s
compliance with each requirement in OMB Circular A-133 Compliance Supplement.
However, DCAA auditors did not conduct adequate follow-up work to ensure that the
work performed by DCMA personnel met the objectives of the assigned compliance
requirements (Eligibility, Procurement and Suspension and Debarment, and Sub-
recipient Monitoring) and could be relied on for the OMB Circular A-133 audit. The
report provided by DCMA to DCAA did not address the objectives in the compliance
supplement for the assigned areas. For example, SRI International passed-through
$43.7 million to sub-recipients during FY 1999. The compliance requirements for
Sub-recipient Monitoring state that the auditor must determine whether the pass-through
entity (SRI International) monitored its sub-recipients' activities to provide reasonable
assurance that the sub-recipient administered Federal awards in compliance with
requirements. The DCMA report provided to DCAA as support for the compliance of
SRI International with the requirements for Sub-recipient Monitoring discusses the
policies and procedures related to contract negotiations that SRI International has in
place, but not whether SRI International actually monitored its sub-recipients. DCMA
personnel stated that they used data from a Contractor Purchasing System Review
(CPSR) conducted in FY 1998 to determine if SRI International was managing their
systems “adequately” in the context of the assigned compliance requirements. The
CPSR does not specifically address the issue of sub-recipient monitoring, and does not
provide enough information to make a determination whether the recipient is




                                                  2
monitoring the OMB Circular A-133 compliance of its sub-recipients. DCMA
personnel did not perform any additional work to answer the objectives of the
compliance requirements. In addition, DCMA personnel did not document any
summaries or conclusions on the CPSR data that was used to develop the report
provided to DCAA.

DCAA auditors relied on the work performed by DCMA personnel because the lead
DCMA reviewer was considered an “expert” in his field. DCAA did not review the
documentation of the work performed by DCMA personnel in order to gain knowledge
of the actual work performed and results obtained, as required by DCAA guidance. As
a result of our review, DCAA personnel conducted discussions with DCMA personnel
and the Administrative Contracting Officer regarding the work program that was used
by DCMA. Based on a comparison between the DCMA work program and DCAA
audit program, DCAA personnel believed that the work performed was adequate.

Recommendation A. We recommend that the Branch Manager, Silicon Valley Branch
Office, DCAA evaluate the work performed by technical specialists in accordance with
the DCAA Contract Audit Manual to ensure that the technical specialist procedures and
assumptions answer the compliance objectives for the assigned areas.

Management Comments. Management concurred with the recommendation. DCAA
personnel stated that they will obtain a reasonable understanding of the actual work
performed by technical specialists in future audits before relying on their work.

Finding B. Planning and Documenting the FY 1999 OMB Circular A-133 Audit.
DCAA auditors did not properly plan and document the OMB Circular A-133 audit of
SRI International. Specifically, the DCAA auditors did not:

       •   use the appropriate OMB Circular A-133 Compliance Supplement;
       •   properly determine the threshold for major programs at SRI International;
       •   correctly determine the amount of substantive testing required, based on the
           results of the risk assessment; and
       •   adequately document the work performed, to include cross-referencing
           between detail workpapers and audit conclusions.

This condition occurred because DCAA auditors involved in planning and documenting
the audit did not have adequate OMB Circular A-133 training, and did not implement
the training they received. In addition, DCAA auditors did not follow other guidance
related to OMB Circular A-133 audits (Government Auditing Standards [GAS], and the
DCAA Contract Audit Manual). As a result, DCAA did not conduct a thorough audit
that provided a reasonable justification for the conclusions on two of nine applicable
compliance requirements reported in the FY 1999 OMB Circular A-133 audit report
(See Appendix A for a list of the applicable compliance requirements).

OMB Circular A-133 requires that audits be conducted in accordance with GAS, and
that the audits meet certain OMB Circular A-133 requirements. DCAA auditors did
not meet these requirements in the following areas:

        Appropriate Compliance Supplement. DCAA auditors used the March 2000
OMB Circular A-133 Compliance Supplement to conduct the SRI International FY
1999 OMB Circular A-133 audit. The correct Compliance Supplement for FY 1999
audits under OMB Circular A-133 was issued in April 1999. The April 1999
Compliance Supplement was effective for audits of fiscal years beginning after June 30,
1998; SRI International’s FY 1999 began December 26, 1998.
                                           3
        Determination of Major Programs. During their determination of major
programs, DCAA auditors used the lesser of three percent of total Federal expenditures
or $3 million as the threshold for Type A programs. OMB Circular A-133 requires
auditors to use the greater of three percent of total Federal expenditures or $3 million
(for auditees whose Federal awards expended exceed $100 million but are less than or
equal to $10 billion).

        Determination of Substantive Testing. During the risk assessment, DCAA
auditors concluded that the overall risk was “moderate,” and that increased substantive
testing was warranted. However, because SRI International offered a $4 million
voluntary deletion, DCAA auditors determined that any potential questioned costs they
found would be less than that, so the increased substantive testing was not performed.
Although this logic makes sense for compliance requirements that involved potential
questioned costs (for instance, Allowable/Unallowable Costs, or Cost Principles); it
does not reduce the risk of non-compliance for requirements that are not cost driven,
such as Sub-recipient Monitoring and Special Tests and Provisions. Therefore, DCAA
should not have decreased the substantive testing for the non cost-related compliance
requirements based on the SRI voluntary deletion.

        Documentation of Work Performed. DCAA did not adequately document the
work performed during the FY 1999 audit, including references of audit conclusions to
the detail working papers that supported the conclusions. The GAS state that working
papers serve three purposes: provide principal support for the auditors’ report; aid the
auditors in conducting and supervising the audit; and allow others to review the audit’s
quality. During extensive discussions with DCAA auditors, we found that many of the
conclusions reached during the FY 1999 audit were based on work performed during
the FY 1998 OMB Circular A-133 audit and other previous assignments. However, the
working papers written during the FY 1999 audit did not provide an audit trail to the
audit assignments or specific working papers used to support their conclusions during
the FY 1998 audit. In addition, DCAA auditors did not adequately document the
materiality decisions for individual compliance requirements within the major program
(Research and Development Cluster). GAS requires working papers to document the
work performed to support significant conclusions. Determinations regarding the
materiality of compliance requirements for the FY 1999 OMB Circular A-133 audit
were documented on a working paper that consisted of a table with “Yes” or “No”
written in for each compliance requirement. There were no explanations for the
conclusions. Therefore, we could not determine the criteria or the basis for
conclusions. As a result of our review, DCAA auditors agreed to better document the
support for audit conclusions.

DCAA auditors involved in planning and supervising the FY 1999 OMB Circular
A-133 audit did not receive adequate training in conducting OMB Circular A-133
audits. Two members of the audit team received formal training in conducting OMB
Circular A-133 audits from DCAA Headquarters. The two members provided
information received during this training to the rest of the team who conducted work
during the FY 1999 OMB Circular A-133 audit of SRI International. However,
members of the team stated that, in some cases, they did not understand the
requirements of the guidance. In addition, DCAA relied on work performed during
other audit assignments to fulfill many OMB Circular A-133 requirements. However,
DCAA auditors did not realize that, in some cases, it was necessary to perform
additional work to answer the audit objectives of the FY 1999 OMB Circular A-133
audit. As a result, key aspects of OMB Circular A-133 audits were not performed



                                           4
correctly during FY 1999. As a result of our review, DCAA auditors agreed to take a
closer look at the regulations and guidance related to OMB Circular A-133 audits, and
ensure that any conclusions reached are adequately supported.

Conclusion. Without the proper training and guidance necessary to conduct OMB
Circular A-133 audits, DCAA auditors failed to properly plan and document the SRI
International FY 1999 audit. To prevent this from happening in future audits, DCAA
auditors must receive formal training in the performance of OMB Circular A-133
audits, and apply the training to the audit work. In addition, DCAA auditors should
perform proper testing of SRI International compliance with internal controls and
compliance requirements during the FY 2000 audit, and, based on the results of this
testing, determine whether they need to perform additional testing for FY 1999
transactions.

Recommendation B.1. We recommend that the Branch Manager, Silicon Valley
Branch Office, DCAA provide training for auditors involved in Office of Management
and Budget Circular A-133 audits. We also recommend that DCAA supervisors
involved in SRI International audits ensure that all applicable regulations and guidance
are followed.

Management Comments. Management concurred with the recommendation. DCAA
personnel stated that all but one of the auditors involved in the FY 2000 OMB Circular
A-133 audit at SRI International had received training, and that the one remaining
auditor was closely supervised.

Recommendation B.2. We recommend that the Branch Manager, Silicon Valley
Branch Office, DCAA instruct auditors to perform proper testing of SRI International
internal controls and compliance requirements during the FY 2000 Office of
Management and Budget Circular A-133 audit. We also recommend that if DCAA
auditors performing the FY 2000 audit determine that there are findings related to
internal control or compliance requirements, the Branch Manager, Silicon Valley
Branch Office, DCAA should determine whether additional testing or a second audit
needs to be performed for FY 1999.

Management Comments. Management concurred with the recommendation. DCAA
personnel stated that auditors increased their substantive testing during the FY 2000
OMB Circular A-133 audit of SRI International, and concluded that there was a finding
related to Sub-recipient Monitoring. After reviewing the finding as it applied to the
FY 1999 audit, DCAA auditors determined that no additional testing was necessary.

Finding C. SRI International reporting to the Federal Clearinghouse on the OMB
Circular A-133 audit for FY 1999 was incomplete. Specifically:

       •   SRI International did not identify expenditures received as pass-through
           awards in the FY 1999 Single Audit Report. OMB Circular A-133 states
           that auditees are to prepare a Schedule of Expenditures of Federal Awards.
           For Federal awards received as a sub-recipient, the auditee shall identify the
           name of the pass-through entity and identifying number assigned by the
           pass-through entity. SRI International expended $27.0 million received from
           pass-through entities out of $130.3 million total Federal award expenditures
           for FY 1999.



                                            5
Appendix A. Quality Control Review Process

Scope and Methodology
     We conducted a quality control review of the DCAA and KPMG LLP audit of
     SRI International for the fiscal year ended December 25, 1999, and the resulting
     reporting submission to the Single Audit Clearinghouse on September 29, 2000
     (Project No. D2001-OA-0108). We performed our review using the 1999
     edition of the “Uniform Quality Control Guide for OMB Circular A-133
     Audits” (the Guide). The Guide applies to any single audit that is subject to the
     requirements of OMB Circular A-133, revised June 24, 1997. The Guide is the
     approved checklist of the President’s Council on Integrity and Efficiency for
     performing quality control reviews. Our review was conducted from April 2001
     through December 2001 and covered areas related to the financial statements
     and the one major program, research and development. As the cognizant audit
     agency for SRI International, we focused our review on the following qualitative
     aspects of the single audit:

            •   qualification of auditors

            •   independence

            •   due professional care

            •   quality control

            •   planning and supervision

            •   internal controls and compliance testing

            •   Schedule of Expenditures of Federal Awards

            •   Schedule of Findings and Questioned Costs

            •   Data Collection Form

     In conducting the review, we reviewed all working papers prepared by DCAA
     and KPMG LLP auditors, discussed the audit with the auditors and SRI
     International cognizant personnel, and reperformed selected audit procedures.


Prior Quality Control Reviews
     Since 1997, we have issued eight quality control reviews of DCAA, and four
     quality control reviews of KPMG LLP. We have also issued four quality
     control reviews of audits performed jointly by DCAA and KPMG LLP. Copies
     of these reports may be obtained by accessing the Defense Inspector General
     web page at www.dodig.osd.mil.



                                            7
Single Audit Requirements
     OMB Circular A-133 establishes policies to guide implementation of the Single
     Audit Act of 1996 (Public Law 98-502) amendments and provides an
     administrative foundation for uniform audit requirements for non-Federal
     entities that administer Federal awards. In addition, OMB Circular A-133
     serves to ensure that Federal departments and agencies rely on and use the audit
     work to the maximum extent practicable. To meet the intent of the law and
     OMB Circular A-133, a complete reporting package on each single audit is
     submitted to the Single Audit Clearinghouse from the auditee (non-Federal
     entity). The reporting package includes the following:

            •   Data Collection Form certified by the auditee that the audit was
                completed in accordance with OMB Circular A-133;

            •   financial statements and related opinion;

            •   Schedule of Expenditures of Federal Awards and related opinion;

            •   report on internal controls over compliance and on compliance with
                laws, regulations, and the provisions of contracts or grant
                agreements, and related opinion on compliance of major programs;
                and

            •   Schedule of Findings and Questioned Costs.

     OMB also issues a Compliance Supplement (the Supplement). The Supplement
     assists the auditors in determining the audit scope of OMB Circular A-133
     requirements for review of internal control. For each compliance requirement,
     the Supplement describes the objectives of internal control and certain
     characteristics that, when present and operating effectively, may ensure
     compliance with program requirements. The Supplement gives examples of the
     common characteristics for the five components of internal controls (control
     environment, risk assessment, control activities, information and
     communication, and monitoring) for each compliance requirement. The
     following 14 compliance requirements applicable to various Federal programs
     are identified in the Supplement:




                                         8
A. Activities Allowed/Unallowed*                      H. Period of Availability of Federal
                                                         Funds*

B. Allowable Costs/Cost Principles*                   I. Procurement and Suspension and
                                                         Debarment*

C. Cash Management                                    J. Program Income


D. Davis-Bacon Act                                    K. Real Property Acquisition/Relocation
                                                         Assistance

E. Eligibility of Federal Funds*                      L. Reporting


F. Equipment and Real Property                        M. Sub-recipient Monitoring*
   Management*

G. Matching, Level of Effort,                         N. Special Tests and Provisions*
   Earmarking*



* Identifies those compliance requirements applicable to SRI International, as determined by DCAA
during the FY 1999 OMB Circular A-133 audit.




                                                  9
Appendix B. Report Distribution
Mr. Byron Rovegno, Controller                 Department of the Navy
SRI International                             Assistant Secretary of the Navy
333 Ravenswood Avenue                           (Financial Management &
Menlo Park, CA 94025                            Comptroller)
                                              Attn: Audit Liaison Branch (FMO-31)
Mr. Steve Devetter, Partner                   1000 Navy Pentagon, Room 115
KPMG LLP                                      Washington, DC 20350-1000
3 Embarcadero Center, Room 2000
San Francisco, CA 94111                       Department of the Army
                                              Deputy Assistant Secretary of the Army
Director                                        for Financial Management &
Defense Contract Audit Agency                   Comptroller
8725 John J. Kingman Road                     Financial and Accounting Oversight
Suite 2353                                      Division
Fort Belvoir, VA 22060-6219                   0109 Army Pentagon, Room 3E588
                                              Washington, DC 20310-0109
Director
Defense Contract Management Agency            Regional Inspector General
6350 Walker Lane, Suite 300                   U.S. Department of Commerce
Alexandria, VA 22310-3241                     401 West Peachtree Street, NW
                                              Suite 2742
Director, Defense Procurement                 Atlanta, GA 30308
Office of the Under Secretary of
  Defense for Acquisition, Technology,        Director, Non-Federal Audits
  and Logistics                               Office of Inspector General
3060 Defense Pentagon, Room 3E1044            U.S. Department of Education
Washington, DC 20301-3060                     1999 Bryan Street, Suite 2630
                                              Dallas, TX 75201-6817
Defense Advance Research Projects
  Agency                                      U.S. Department of Energy
Director, Contracts Management Office         Office of Inspector General
Attn: Mr. R. Timothy Arnold                   Attn: Single Audit Contact
3701 North Fairfax Drive                      1000 Independence Avenue, SW
Arlington, VA 22203-1714                      IG-33, Room 5A-193
                                              Washington, DC 20585
Department of the Air Force
Office of the Assistant Secretary             Non-Federal Audits
  (Financial Management & Controller)         HHS OIG National External Audit
Attn: Director, Audit Liaison                   Resources
  (SAF/FMPF)                                  Lucas Place
1130 Air Force Pentagon, Room 4D212           323 West 8th Street, Room 514
Washington, DC 20330-1130                     Kansas City, MO 64105




                                         10
Appendix B. Report Distribution (Cont’d)
U.S. Department of Transportation
Office of Inspector General JA-20
400 7th Street SW, Room 9228
Washington, DC 20590

USAID
Attn: OIG/A/FA
Room 8.10-10
1300 Pennsylvania Avenue, NW
Washington, DC 20523-7802

National Single Audit Coordinator
Office of Inspector General
Mid-Atlantic Audit Division
U.S. Environmental Protection Agency
3AI00 1630 Arch Street, 3rd Floor
Philadelphia, PA 19103-2029

NASA Office of Inspector General
NASA Headquarters, Code W
3000 E Street, SW, Room 8T79
Washington, DC 20546-0001

Office of Inspector General
National Science Foundation
Assistant Inspector General for Audit
4201 Wilson Boulevard, Suite 1135
Arlington, VA 22230

Department of State
Office of Inspector General
OIG/AUD/CG
1700 North Moore Street, Room 720
Arlington, VA 22209




                                        11
Defense Contract Audit Agency
Comments




                  13
14
     Final Report
      Reference




     Removed
     the word
     Reporting.




15
16
SRI International Comments
                             Final Report
                              Reference




                             Revised




                     17
Review Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report, are listed below.

Wayne C. Berry
Martin T. Heacock
Laura A. Rainey
Krista S. Gordon
